<html>
<title> - GREAT EXPECTATIONS: ASSESSMENTS, ASSURANCES, AND ACCOUNTABILITY IN THE MAYOR'S PROPOSAL TO REFORM THE DISTRICT OF COLUMBIA'S PUBLIC SCHOOL SYSTEM</title>
<body><pre>[Senate Hearing 110-241]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-241

                    GREAT EXPECTATIONS: ASSESSMENTS,
                 ASSURANCES, AND ACCOUNTABILITY IN THE
                MAYOR'S PROPOSAL TO REFORM THE DISTRICT
                   OF COLUMBIA'S PUBLIC SCHOOL SYSTEM

=======================================================================

                                HEARING

                               before the

                  OVERSIGHT OF GOVERNMENT MANAGEMENT,
                     THE FEDERAL WORKFORCE, AND THE
                   DISTRICT OF COLUMBIA SUBCOMMITTEE

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 19, 2007

                               __________

        Available via http://www.access.gpo.gov/congress/senate

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs












                     U.S. GOVERNMENT PRINTING OFFICE

37-362 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001









        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TED STEVENS, Alaska
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
MARK L. PRYOR, Arkansas              NORM COLEMAN, Minnesota
MARY L. LANDRIEU, Louisiana          TOM COBURN, Oklahoma
BARACK OBAMA, Illinois               PETE V. DOMENICI, New Mexico
CLAIRE McCASKILL, Missouri           JOHN WARNER, Virginia
JON TESTER, Montana                  JOHN E. SUNUNU, New Hampshire

                  Michael L. Alexander, Staff Director
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
                  Trina Driessnack Tyrer, Chief Clerk


  OVERSIGHT OF GOVERNMENT MANAGEMENT, THE FEDERAL WORKFORCE, AND THE 
                   DISTRICT OF COLUMBIA SUBCOMMITTEE

                   DANIEL K. AKAKA, Hawaii, Chairman
CARL LEVIN, Michigan                 GEORGE V. VOINOVICH, Ohio
THOMAS R. CARPER, Delaware           TED STEVENS, Alaska
MARK L. PRYOR, Arkansas              TOM COBURN, Oklahoma
MARY L. LANDRIEU, Louisiana          JOHN WARNER, Virginia

                   Richard J. Kessler, Staff Director
             Jennifer A. Hemingway, Minority Staff Director
                      Emily Marthaler, Chief Clerk






















                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Akaka................................................     1
    Senator Landrieu.............................................    16
    Senator Carper...............................................    23

                               WITNESSES
                        Thursday, July 19, 2007

Hon. Adrian M. Fenty, Mayor, District of Columbia................     3
Michelle A. Rhee, Chancellor, District of Columbia Public Schools     5
Robert C. Bobb, President, District of Columbia State Board of 
  Education......................................................     7
Victor Reinoso, Acting Deputy Mayor for Education, District of 
  Columbia.......................................................     9
Deborah A. Gist, State Superintendent of Education, Office of the 
  State Superintendent...........................................    10
Allen Y. Lew, Executive Director, Office of Public Education 
  Facilities Modernization, District of Columbia Public Schools..    12

                     Alphabetical List of Witnesses

Bobb, Robert C.:
    Testimony....................................................     7
    Prepared statement...........................................    46
Fenty, Hon. Adrian M.:
    Testimony....................................................     3
    Prepared statement...........................................    39
Gist, Deborah A.:
    Testimony....................................................    10
    Prepared statement...........................................    55
Lew, Allen Y.:
    Testimony....................................................    12
    Prepared statement...........................................    61
Reinoso, Victor:
    Testimony....................................................     9
    Prepared statement...........................................    51
Rhee, Michelle A.:
    Testimony....................................................     5
    Prepared statement...........................................    42

                                APPENDIX

Background.......................................................    66
Questions and responses for the Record from:
    Mayor Fenty..................................................    72
    Ms. Rhee.....................................................    74
    Ms. Gist.....................................................    79
    Mr. Lew, with attachments....................................    90






















 
                    GREAT EXPECTATIONS: ASSESSMENTS,
                   ASSURANCES, AND ACCOUNTABILITY IN
                   THE MAYOR'S PROPOSAL TO REFORM THE
                     DISTRICT OF COLUMBIA'S PUBLIC
                             SCHOOL SYSTEM

                              ----------                              


                        THURSDAY, JULY 19, 2007

                                 U.S. Senate,      
              Subcommittee on Oversight of Government      
                     Management, the Federal Workforce,    
                            and the District of Columbia,  
                      of the Committee on Homeland Security
                                        and Governmental Affairs,  
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 2:40 p.m., in 
Room 342, Dirksen Senate Office Building, Hon. Daniel K. Akaka, 
Chairman of the Subcommittee, presiding.
    Present: Senators Akaka, Landrieu, and Carper.

              OPENING STATEMENT OF CHAIRMAN AKAKA

    Senator Akaka. It's really good to see all of you here 
today, and I've got to say, the panel is loaded with all of the 
Mayor's education team. This hearing will come to order.
    I want to welcome all of our distinguished panel and our 
guests. I would like to thank all of you for joining us here 
today for this very important hearing on the District of 
Columbia's Public School System and the Mayor's reform efforts.
    Before being elected to Congress, I was a teacher and a 
principal for my home State of Hawaii's Department of 
Education, and I worked in the Office of the Superintendent. As 
you know, Hawaii has a unified school system. There is one 
superintendent and one school board. So I know first hand the 
challenges facing educational systems.
    After decades of failed policies, the system is in what I 
gather, a sad state. But as the Mayor knows, it cannot take us 
as long to revive DCPS as it did to erode the system. Every 
minute of a child's education that is lost can never be 
replaced.
    With only 1 month to go before the 2007-2008 school year 
begins, much remains to be done. The challenges facing Mayor 
Fenty and his new leadership team are monumental. I want to 
commend the Mayor for making the education of the District's 
children a top priority.
    Entire generations of students going through D.C. Public 
Schools have suffered through the failures of a broken system 
immune to reforms. In the past 20 years, this is the sixth 
major reform effort and no tangible improvements in student 
achievement have been realized. I will share a few statistics 
that highlight the problem. This is not new to you.
    Approximately $13,000 is spent per pupil per year, but only 
45.5 percent of those dollars are spent on educational 
instruction, compared to 54.4 percent for urban areas 
nationwide.
    Thirty-three percent of fourth grade students rate above 
basic in reading, compared to a national average of 62 percent. 
Forty-five percent of fourth graders rate above basic in math, 
compared to an average of 79 percent across the Nation.
    There are 74 critical health code violations, nearly 10,000 
open maintenance requests, and 1,500 urgent maintenance 
requests.
    Eighteen percent of students have special education needs, 
and $75 million is given to other school districts every year 
because the District is unable to meet their needs.
    These statistics do not paint a clear picture of the daily 
challenges students face in buildings without bathrooms, 
falling plaster, doors with padlocks on them, and entire high 
schools without any working water fountains. These are not 
environments that promote learning.
    A study of DCPS released in December 2006, by the Parthenon 
Group, recommended that teaching, curriculum, testing, human 
capital operations, the central office and its support 
functions, special education programs, facilities management, 
and community-wide engagement all needed to be redesigned. The 
challenge now is breaking the record of failure and 
implementing the reforms and achieving measurable success.
    As the Parthenon study suggests, one of the major reasons 
for the failure of the school system, beyond poor management, 
crumbling facilities, unqualified teachers, and an overburdened 
bureaucracy, is the need for governance reform. While public 
school systems in the United States are traditionally run by 
elected boards of education, in many urban areas mayors across 
the country are increasingly seeking control of schools. It is 
important to lift the undue financial and bureaucratic burdens 
on resources, which will allow the focus to be on improving 
student learning.
    However, governance reform is not a solution in itself. 
Accountability standards and curriculum reforms must be 
implemented for educators, administrators, teachers, parents, 
and students to reach the ultimate goal, improved student 
achievement.
    Public education should be the great equalizer, not the 
great demoralizer. When our educational systems fails, those 
who need the system most are paralyzed and disenfranchised. 
When our schools are hampered with issues of poor student 
achievement, poor management systems, poorly maintained data 
systems, and unfit facilities, there is little to no attention 
given to the very individuals our school system is put in place 
to support, our children.
    One thing is certain. The system that is in place is not 
effective and has not been for years. There are pockets of 
achievement in the school system and many people are working, 
and working hard to cultivate an environment of learning and 
achievement. Hopefully, this reform effort will create more 
positive actors in the system.
    In this hearing, we hope to review the Mayor's plan to 
implement reforms, establish expectations for the plan's 
success, and set forth benchmarks for accountability. I am 
really hopeful that the efforts being made by the Mayor and his 
leadership team pay off and look forward to hearing how they 
plan to move forward to plant the seeds of progress.
    To the Mayor and your team, it is a huge challenge, but it 
is one that will make a huge difference in the future. From 
what I see already, Mr. Mayor, I would say that you have a good 
beginning, and so I want to be, in a sense, part of that team 
to help bring this about.
    With us today, we have the Hon. Adrian Fenty, Mayor of the 
District of Columbia. We have Michelle Rhee, Chancellor of the 
D.C. Public Schools; Robert Bobb, President of the D.C. State 
Board of Education; Victor Reinoso, Acting Deputy Mayor for 
Education; Deborah Gist, D.C. State Superintendent of 
Education; and Allen Lew, Executive Director of the Office of 
Public Education Facilities Modernization.
    Our Subcommittee rules require that all witnesses testify 
under oath, so therefore I ask you to please stand and raise 
your right hand and join me in this oath.
    Do you solemnly swear that the testimony you are about to 
give this Subcommittee is the truth, the whole truth, and 
nothing but the truth, so help me, God?
    Mayor Fenty. I do.
    Ms. Rhee. I do.
    Mr. Bobb. I do.
    Mr. Reinoso. I do.
    Ms. Gist. I do.
    Mr. Lew. I do.
    Senator Akaka. Thank you. Let the record note that the 
witnesses responded in the affirmative.
    Welcome again, and before we begin, I want you all to know 
that although your oral statement is limited to 5 minutes, your 
full written statements will be included in the record.
    Mr. Mayor, please proceed with your statement.

   TESTIMONY OF HON. ADRIAN M. FENTY,\1\ MAYOR, DISTRICT OF 
                            COLUMBIA

    Mayor Fenty. Thank you very much, Chairman Akaka, Members 
of the Subcommittee, and staff. Thank you very much for 
inviting us to testify today about the bright future of the 
District of Columbia Public Schools. For the record, my name is 
Adrian M. Fenty, the fifth elected Mayor of the District of 
Columbia.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mayor Fenty appears in the Appendix 
on page 39.
---------------------------------------------------------------------------
    Mr. Chairman, I took office on a pledge to improve the 
lives of all residents of the Nation's capital, but especially 
the Nation's capital's children. As a society, we have an 
obligation to make sure that our children have the tools they 
need to succeed as adults. Our children deserve the best 
environment we can give them for learning, and our teachers 
deserve the best environment we can give them for teaching.
    As you have stated, our public education system in the 
District has not done right by its students, including 55,000 
in DCPS schools and more than 20,000 in the public charter 
schools, for quite some time. The situation is urgent because 
more than two-thirds of our fourth graders are reading below 
grade level. Fewer than half graduate from high school in 5 
years. This means that the vast majority of students in the 
D.C. Public Schools don't stand a good chance of having what 
has been vital to the success of nearly every person in this 
room, and that is a college education.
    I took office in January knowing it was time to do 
something radically different in the schools. Why? Because we 
have had study after study dating almost back to when I was a 
D.C. Public Schools student documenting how the schools are 
failing our children. This has to end.
    Securing control over the schools is the first priority of 
my administration. After several months of careful 
consideration, including 70 hours of public hearings, the 
Council of the District of Columbia approved my School 
Governance Reform Plan on April 19. As you are aware, the bill 
was then approved by Congress and signed into law by President 
Bush on June 1. Let me take this opportunity to express my 
appreciation to you, Mr. Chairman, to Senator Voinovich, and to 
all the Members of the Subcommittee for moving that legislation 
through the Senate so quickly.
    Today, I would like to formally introduce you to my team, 
the architects of a new future for the District of Columbia 
Public Schools. For the record, each of these individuals has a 
long track record of service, either to the city, to young 
people, or to both. Each has my complete confidence.
    To start, I am very happy to introduce Michelle Rhee, to my 
left, our new Chancellor. She was confirmed by the Council just 
last week and has hit the ground running. She has already 
identified some of the key problems that need to be resolved 
before school starts in the fall and she and her team are 
already developing ways to fix them.
    On the budget front, Victor Reinoso, my Deputy Mayor for 
Education, has hired a team of auditors to take a close look at 
the school system's finances so we can redirect more of our 
money to the classroom. He will also harness resources from 
across the government to address obstacles to success in school 
for our kids.
    Deborah Gist, my new State Superintendent, will head a 
State education agency for the District that is truly 
independent, addressing a longstanding concern of many school 
activists.
    Finally, Allen Lew, former head of the D.C. Sports and 
Entertainment Commission, will be in charge of facilities. He 
is sending construction professionals into every classroom in 
DCPS to make much-needed repairs right away. They are going to 
fix the roofs, the ceilings, and the toilets. Then he will turn 
to a full-scale effort to modernize buildings throughout the 
system.
    We are also very excited to work with the State Board of 
Education as we continue to make sure that we have a real 
partnership in excellence for our school system.
    Across the board, we are going to set clear performance 
goals, improve the way we measure progress toward them, and 
demand results.
    As an aside, I recognize that our responsibility for 
educating our children doesn't end when they graduate from high 
school, so I want to thank the Subcommittee and especially you 
and Senator Voinovich for your work in reauthorizing the D.C. 
Tuition Assistance Grant Program. With the help of Congress and 
private sector donors, such as the Gates Foundation, we plan to 
triple the rate of our students who finish college, beginning 
with the Class of 2014. Many of these young people are the 
first in their families to attend college. Just imagine the 
long-term impact this program will have on our city.
    Former Federal Reserve Chairman Alan Greenspan once said, 
``If you can't get education right, nothing else matters.'' In 
the District of Columbia, for the first time in a long time, we 
are in the process of getting education right.
    Chairman Akaka, this concludes my prepared remarks. I would 
like to thank you again for the opportunity to testify today 
and I am more than happy to answer any questions. Thank you.
    Senator Akaka. Thank you very much, Mr. Mayor. Thank you 
for your statement. Ms. Rhee, you may proceed with your 
statement.

   TESTIMONY OF MICHELLE A. RHEE,\1\ CHANCELLOR, DISTRICT OF 
                    COLUMBIA PUBLIC SCHOOLS

    Ms. Rhee. Thank you and good afternoon, Chairman Akaka. I 
am honored to appear before you today and am grateful for your 
interest in the District of Columbia Public Schools (DCPS). For 
the record, my name is Michelle Rhee. Last week, I was 
confirmed by the Council of the District of Columbia to become 
the first Chancellor of DCPS. In this capacity, I have 
oversight of the District's 141 schools, from elementary 
through high school. I establish school curriculum, set 
performance standards for school staff and central office 
employees, provide the supports needed for teachers and 
students to succeed, oversee the school district's budget, and 
set policies for all of the schools in DCPS.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Rhee appears in the Appendix on 
page 42.
---------------------------------------------------------------------------
    As Chancellor, I will work closely with my colleagues, the 
Deputy Mayor, the Director of the Office of Public Education 
Facilities Modernization, the State Superintendent, and the 
State Board of Education to ensure that the educational needs 
of our District's children are being met.
    I am going to start by telling you a little bit about 
myself. I have worked in the field of urban education for the 
last 15 years. My career in education began in Baltimore, 
Maryland, where I was a second and third grade teacher at 
Harlem Park Elementary School. My experience there shaped the 
rest of my career because I had an experience where I saw that 
students who were performing at the bottom on nationally-
recognized standardized tests could quickly be guided to be 
performing at the top through the hard work of teachers and 
through quality instruction.
    To help more children realize this potential, I founded an 
organization called The New Teacher Project (TNTP), one of the 
country's most well-respected education reform organizations. 
TNTP is dedicated to improving public education by increasing 
the number of high-quality teachers who enter our public 
schools and the number who are working in low-performing 
schools and districts across the country. In its work with some 
of the largest urban school districts in the Nation, TNTP has 
had a positive systemic impact in ways that were not thought 
possible. Across the country, TNTP has brought in over 23,000 
teachers to educate over two million children in the urban 
school districts across the country, and I have advised many of 
the most successful urban superintendents on the issues of 
teacher quality.
    All of this brings me to my first principle that will drive 
my work as Chancellor, which is the critical importance of 
having high-quality education professionals throughout our 
school system. I believe that people are absolutely paramount 
to the success of the District. To achieve the goals that we 
set forth, I will focus relentlessly on building a core of 
effective principals and teachers.
    At the same time, because we currently have so many 
excellent educators in the system, it is critical that we are 
supporting, recognizing, and rewarding the effective educators 
that we do have. In short, we must have outstanding induction, 
professional development, and career growth opportunities for 
staff at every level. Building human capital in this system 
will require improved working conditions in schools, a truly 
supportive central administration that gives educators the 
tools they need when they need them, and professionalism at all 
levels. Finally, the role of the school principal is critical 
in identifying and growing talent. We must support our school 
leaders so that they can become great talent managers.
    Next, I believe that we must transition from a culture of 
diffuse accountability to individual responsibility for student 
achievement. The Mayor has made clear throughout the city that 
he will focus on accountability and I intend to do the same. 
The way to do this is clear, through a combination of high 
expectations for performance and substantial support to those 
who meet expectations. We will establish and communicate very 
clear expectations for everyone in the system, from teachers 
and principals who will be responsible for improving student 
achievement to parents, staff, and administrators who are 
responsible for creating an environment in which educators can 
focus on children. Everyone must understand what they are 
responsible for doing, how it is aligned to student 
achievements, and how their performance will be evaluated.
    After we lay out these expectations, we must as a system 
ensure that all individuals have the training, support, and 
resources necessary to be successful.
    Last, I am going to insist on an instructional approach 
that is consistent and aligned throughout our schools, 
beginning with reading. By consistent and aligned, I mean that 
nearly every school will adopt the same highly proven programs 
and implement them with fidelity across grades and classrooms. 
Professional development will focus entirely on these specific 
programs and will be delivered in most cases by a single 
specialized provider across schools. We will track the progress 
in implementing the curriculum rigorously and consistently 
across schools and classrooms.
    Consistency, however, does not mean a one-size-fits-all 
approach. Clearly, we must provide some autonomy in instruction 
to high-performing schools. We have many high-performing 
schools in this city who show strong academic results year in 
and year out and we want to make sure that those schools will 
be able to continue with their programs and, in fact, will look 
to them for best practices.
    Finally, I will implement a high-quality interim assessment 
system that will allow us to track individual school, 
classroom, and student data to ensure that we are making 
progress towards our goals as a system.
    We have everything we need to do this in our city and we 
can do this if we take our collective talents, resources, 
desires, and minds and turn them into an undeniable collective 
will. For me, that is truly the question before us today, is do 
we have what it takes to move forward, and I believe we do. 
Thank you.
    Senator Akaka. Thank you very much, Ms. Rhee. Mr. Bobb, 
please proceed with your statement.

TESTIMONY OF ROBERT C. BOBB,\1\ PRESIDENT, DISTRICT OF COLUMBIA 
                    STATE BOARD OF EDUCATION

    Mr. Bobb. Thank you, Mr. Chairman and Members of the 
Subcommittee. I would like to thank you for this opportunity to 
testify before you today. My name is Robert C. Bobb. I am 
President of the District of Columbia State Board of Education, 
and joining me is Lisa Raymond, a member of our State Board.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Bobb appears in the Appendix on 
page 46.
---------------------------------------------------------------------------
    The D.C. State Board of Education was established by the 
District of Columbia Education Reform Amendment Act of 2007. 
The State Board of Education looks forward to discharging our 
new duties and responsibilities. In our new role approving and 
advising on city-wide education issues, we will approve 
learning standards and graduation requirements. We will approve 
the accountability structure that will dictate how lagging and 
failing schools are supported and held accountable for their 
performance. And we will establish the criteria for operating 
all types of education institutions throughout the District of 
Columbia, including the D.C. Public Schools, charter schools, 
private schools, supplemental education service providers, and 
the education programs administered at the college and 
university level.
    You have named this hearing ``Great Expectations,'' and I 
can think of no better unifying theme for our education reform 
efforts in the District of Columbia. We must continue to have 
extraordinarily high expectations for our students that are 
supported by standards that are among the most stringent in the 
Nation, and that is what the State Board will advance.
    I also believe that we must have extraordinarily high 
expectations for ourselves. There are many different benchmarks 
upon which to measure the performance of a State or school 
district, and I think we need to aim to have very high 
standards for ourselves and for our students. I also believe 
that the District of Columbia should aim for greater gains on 
test scores than the gains at all comparable large urban school 
districts across the Nation. And finally, I believe that all 
students in the District of Columbia should be able to read at 
or above grade level.
    To get there, we will make it part of our work plan as a 
State Board. We will focus on early childhood education. We 
believe that there is a cohort of education experts who have 
said that the student achievement gap is the most important 
issue facing urban school districts, but we are listening to a 
different set of experts who say that we should be looking 
instead at the preparation gap. The preparation gap, which is 
defined and measured as the social, motor, and cognitive skills 
with which students arrive to begin their formal education, is 
especially prevalent in urban areas where children have a 
predisposition to certain socioeconomic and health risks.
    As outlined in the District of Columbia Public School 
System Master Education Plan, repeated research studies on 
early childhood education have shown that quality early care 
and education can have a significant and positive impact on a 
child's school and life skills and that the results are 
particularly strong for education with certain health and 
socioeconomic risks.
    We will also work with the new Chancellor and with the city 
overall on a healthy focus on reading. We need a city-wide 
movement to improve reading proficiency in the District. 
Academic research demonstrates that children who are not 
reading by the third grade are less likely to succeed 
academically and professionally for the rest of their lives, 
and reading levels in the District of Columbia are 
dishearteningly low.
    When we address the reading crisis in the District, we will 
be addressing many other pressing challenges facing our city. 
For example, many children are misclassified as special 
education children, not because of a learning disability but 
because they simply cannot read. By improving reading skills, 
we will begin to reduce the daunting number of District 
children in special education, which will help us reduce costs 
and focus special education services on those with the most 
need. And by focusing on reading, we can also begin to address 
the extremely high unemployment levels within the District of 
Columbia.
    The nature of these challenges calls for a coordinated 
multi-faceted solution, and I endorse the Mayor's plan to unite 
all education-related services from birth to adulthood in one 
State agency to help us to address these problems 
comprehensively.
    There are many positive examples for the District to follow 
to foster a city-wide reading improvement. For example, in 
Jacksonville, Mayor John Peyton put forward a wide-ranging 
initiative called Rally Jacksonville around reading initiatives 
throughout the community.
    I look forward to working with the Mayor, the Chancellor, 
the State Superintendent of Education to institute an 
initiative across the District of Columbia to address the 
reading crisis within the District of Columbia directly. Thank 
you, Mr. Chairman.
    Senator Akaka. Thank you very much, Mr. Bobb. Mr. Reinoso, 
we look forward to your statement. Will you please proceed.

    TESTIMONY OF VICTOR REINOSO,\1\ ACTING DEPUTY MAYOR FOR 
                EDUCATION, DISTRICT OF COLUMBIA

    Mr. Reinoso. Thank you, Chairman Akaka. I am Victor 
Reinoso, the Acting Deputy Mayor for Education of the District 
of Columbia. Thank you again for inviting us here today to 
discuss the exciting reform efforts underway.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Reinoso appears in the Appendix 
on page 51.
---------------------------------------------------------------------------
    I am here to talk to you about our reform efforts from a 
broader perspective and how with the newly-created D.C. 
Department of Education we are bringing all of the government's 
resources together to support public education in a 
comprehensive way that I believe will make us successful in 
raising student achievement.
    The Mayor has made education the first priority of his 
administration. Recognizing that in order to truly reform and 
improve the delivery of educational services in the District, 
there must be coordination and alignment of resources, 
policies, strategies, and services at the cabinet level, the 
Mayor established the Office of the Deputy Mayor for Education, 
and through the District of Columbia Public Education Reform 
Amendment Act of 2007 formalized this role by creating a D.C. 
Department of Education.
    The Department of Education addresses a longstanding need 
in the District, the lack of central, coordinated, and aligned 
service delivery across all education levels, from birth into 
adulthood, pre-K through post-graduate work. In the District, 
we have over 50 local education agencies, including the D.C. 
Public Schools and each public charter school, a public 
university, a public library system, and numerous providers of 
early childhood and adult education services. Additionally, we 
have dozens of supplemental and out-of-school-time service 
providers for services ranging from violence prevention 
training to college preparation and workforce training.
    Yet in the past, these services have not been coordinated 
or focused on a single set of goals and there has been no 
District-wide plan to bring these services together, ensure 
that they are effective, and strategically link them to better 
results for the children and families most in need. A similar 
lack of coordination has existed among other child and youth-
serving agencies and services of the District Government.
    Instead of providing direct services or replacing the work 
and efforts that are ongoing within agencies, the Department of 
Education works to ensure that the Mayor's vision for education 
and youth development in the District is implemented 
methodically and supported consistently across agencies and 
stakeholders, public and private. Since the beginning of the 
year, we have been working on several projects aligned with the 
Mayor's vision that lay the groundwork for policy decisions and 
implementation by the State Superintendent and Chancellor.
    We have completed a review of potential teacher incentive 
programs in place in other cities and States, initiatives 
directed by nonprofit organizations, and innovations being 
implemented or planned by DCPS. We continue to build a strong 
working relationship with the Washington Teachers' Union, and 
we have reached out to leaders on this topic from across the 
country, including the New Teacher Center, the Teacher 
Advancement Program, and the National Center on Performance 
Initiatives. We have developed two school facilities 
initiatives to reduce the backlog of work orders in the school 
system and we have worked diligently on accelerating the 
process by which surplus school buildings are made available to 
public charter schools in need of space.
    Strengthening the current system of early childhood care 
and education programs in the District has the potential to 
yield some of the best results for our long-term education 
reform efforts. Whether we are working to ensure that children 
are prepared when they enter elementary school or identifying 
issues that can impede a child's education and implementing the 
appropriate interventions, aligning efforts between early 
childhood and the K-12 system is an important focus of the 
Fenty administration.
    In addition to this substantial education-related policy 
work, my staff is also coordinating and facilitating support 
from other District agencies in support of the needs of the 
public education system. We coordinated with the City 
Administrator and the Office of Property Management to provide 
additional technical manpower to address pressing facilities 
needs during the severe cold periods of January and February. 
In addition, we have intervened to address potential lead 
contamination in drinking water. We have convened a working 
group comprised of the staff of the EPA, DCPS, the City 
Administrator, the Water and Sewer Authority, and the D.C. 
Departments of Environment and Health to develop and implement 
an accelerated intervention plan.
    In preparation for the transition in governance, we felt it 
was critical to conduct a comprehensive review of the school 
system's finances, operations, and management structure. With a 
generous contribution from the nonprofit District of Columbia 
Education Compact, private firms were engaged to conduct these 
critical reviews, which should be completed by the end of 
September. Rather than doing just another study, we have 
structured this work to encompass key areas and produce 
deliverables that we can use to realign resources to support 
our main objective, high quality educational opportunity and 
increased student achievement.
    The District's Public Education System faces many 
challenges. It will take a collective strategic effort, along 
with the resources, human capital, and a strong system of 
accountability, to accomplish our goals. Under the leadership 
of the Mayor, we are acting aggressively to meet the urgency of 
this situation, but also deliberately to address the complexity 
of the problem.
    Again, thank you for the opportunity to appear before you 
today and speak on the Mayor's education reform initiative. I 
am happy to answer any questions you may have.
    Senator Akaka. Thank you very much, Mr. Reinoso. Ms. Gist, 
you may proceed with your statement.

   TESTIMONY OF DEBORAH A. GIST,\1\ STATE SUPERINTENDENT OF 
         EDUCATION, OFFICE OF THE STATE SUPERINTENDENT

    Ms. Gist. Thank you. Good afternoon, Chairman Akaka, 
Subcommittee Members, and guests. I am Deborah Gist and I serve 
as the State Superintendent of Education. I am pleased to be 
here this afternoon to share my vision for the new Office of 
the State Superintendent of Education.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Gist appears in the Appendix on 
page 55.
---------------------------------------------------------------------------
    As specified by the requirements of the D.C. Public 
Education Reform Act, we are currently engaged in developing a 
detailed transition plan that will be submitted to the Mayor no 
later than September 10. This transition plan will provide a 
timeline and a road map for the transfer of each State-level 
function from the D.C. Public Schools, the Department of Human 
Services, and the University of the District of Columbia to the 
authority of the Office of the State Superintendent of 
Education.
    The D.C. Public Education Reform Amendment Act accomplishes 
the goal of separating the District's local education functions 
from its State-level education functions, a goal that has long 
been sought by the U.S. Department of Education and more 
recently by the U.S. Senate. DCPS staff and State education 
agency staff will have separate reporting structures. As such, 
both the LEA and the SEA will be housed in different locations 
with different staff performing their respective functions.
    This new structure ensures the independence of the Office 
of the State Superintendent of Education and that State-level 
policy making and its compliance-related activities while 
providing for oversight of the agency by the Mayor and the 
Deputy Mayor for Education. This independence is achieved 
through the appointment of the State Superintendent of 
Education to a fixed term from which she can only be removed 
for cause. This key distinction provides the SEA with the 
autonomy that it needs in order to effectuate the necessary 
reform.
    Under the structure established in the education reform 
legislation, the Office of the State Superintendent of 
Education will be able to move forward with a distinct but 
coordinated agenda with the DCPS LEA. The Office of the State 
Superintendent will provide a structure whereby enhanced 
oversight, accountability, and monitoring will replace a system 
with inherent conflicts of interest. As such, the Office of the 
State Superintendent of Education will have the responsibility 
as defined by Federal law to provide supports and interventions 
for all local education agencies when they are non-compliant 
with the law, specifically as it relates to student 
achievement. On the LEA side, the D.C. Public Schools will be 
able to move forward implementing their core mission, educating 
the children, absent the distraction of also performing the 
State-level functions.
    The District of Columbia Public Education Reform Amendment 
Act is consistent with each of the requirements called for in 
Senate Appropriations Committee Report, S. Rept. 109-281. 
Specifically, the legislation places the Office of the State 
Superintendent of Education in charge of implementing the 
State-level requirements for ``No Child Left Behind.''
    Second, the distribution of State-level education functions 
established in the legislation is consistent with the structure 
in other States. In New Mexico and Texas, for example, the 
governor is responsible for the appointed chief State school 
officer, while the State Board of Education is an elected body.
    Finally, the Act establishes a strong and clear framework 
with regard to implementation of the Federal law. I am 
confident that the requirements established under Federal law 
provide the Office of the State Superintendent of Education 
with the tools that we need to support all of our local 
education agencies, both DCPS and the public charter schools, 
to intervene when necessary and to hold all LEAs accountable 
for performance.
    It is important to note that we will have many challenges 
as we move through this transition process. First, we must 
ensure that the separation of the responsibilities is carried 
out in a thorough and thoughtful manner. Currently, there are 
employees at D.C. Public Schools who manage both State and 
local functions in any given day and we must pay attention to 
how those responsibilities are divided. Second, we must ensure 
that the Federal grants process meets the needs of the U.S. 
Department of Education's corrective action plan for our 
designation as a high-risk grantee. Also, we must pay specific 
attention to how we manage special education functions during 
this transition process.
    Despite these challenges, I am confident and I am deeply 
committed to ensuring that the transition of State-level 
education functions is a success and that we act to utilize 
every tool at our disposal to make the necessary changes to 
increase student achievement and enhance our systems of 
accountability.
    In looking at the long-term priorities of the Office of the 
State Superintendent of Education, it is essential that we 
focus on efforts to prepare students to succeed in the 21st 
Century creative economy. To address this issue, we will, with 
the advice and support of the State Board of Education, focus 
to ensure that our standards are aligned with college and 
workforce readiness expectations, that our teachers are of the 
highest caliber, and that our students enter the classroom 
ready to learn, and we will ensure that there is a focus on 
providing high-quality early care and education and literacy 
programs to our residents.
    Again, I appreciate this opportunity to testify on our 
transition efforts and our priorities and I look forward to 
further dialogue as we move forward with this transition 
effort. Thank you.
    Senator Akaka. Thank you very much, Ms. Gist. And now, Mr. 
Lew, you may proceed with your statement.

  TESTIMONY OF ALLEN Y. LEW,\1\ EXECUTIVE DIRECTOR, OFFICE OF 
PUBLIC EDUCATION FACILITIES MODERNIZATION, DISTRICT OF COLUMBIA 
                         PUBLIC SCHOOLS

    Mr. Lew. Thank you, Mr. Chairman and Members of the 
Subcommittee. Thank you for the opportunity to appear before 
you today. I am Allen Lew. I was nominated to this post by the 
Mayor several weeks ago and the City Council confirmed my 
appointment last week. Since being named, I have worked to 
assemble an interim team of staff, consultants, and contractors 
and have tasked them with thoroughly assessing the conditions 
in our schools and beginning long-overdue repairs in the 
schools that our children are attending.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Lew appears in the Appendix on 
page 61.
---------------------------------------------------------------------------
    Today, I will share with you our initial findings regarding 
the prior facilities management structure at DCPS and the 
benchmarks we intend to establish going forward so that our 
efforts can be accurately monitored and assessed in the months 
and years ahead.
    The problems of DCPS facilities are well documented, so I 
won't recount them here. I will tell you, however, that I 
intend to establish a new culture for school facilities 
management that will be proactive and results-oriented. The 
current system has too many layers of bureaucracy and is too 
inwardly-focused. We will create a leaner, flatter management 
structure that is more like those in the private sector than a 
traditional government model. We will treat the school system's 
students, parents, and staff as our customers, our clients, and 
deliver school facilities that meet their needs.
    In the immediate term, I am committed to resolving the 
longstanding problem of deferred maintenance in our schools. 
Specifically, we will tackle several thousand outstanding work 
orders over the next several months. However, we are also 
examining the full scope of work to be performed at each 
school, whether or not the problem was submitted as a work 
order.
    To that end, Mayor Fenty has charged me with pushing 
forward to address critical quality-of-life issues for students 
and staff before the opening of schools in the fall. The first 
initiative is the Summer Blitz program recently approved by the 
City Council for 37 schools most in need of remedial repair. 
This phase of the work is focused on the most significant 
building deficiencies--leaking roofs, non-functioning gutters, 
repairs to boilers, heating systems, air conditioning, 
ventilation systems, and bathroom, kitchen, and plumbing 
problems. Additional work will include replacement of drinking 
fountains and windows.
    While most of this work will be completed by the start of 
the school year, we will necessarily have to push into the fall 
semester to complete all of the work on the scopes of work for 
these initial projects. In my discussions with the school 
principals, I have been heartened to learn that they share the 
Mayor's view that it is more important to do the work correctly 
the first time, completely the first time, and have the 
necessary maintenance plans in place to ensure that these 
problems don't reoccur rather than rushing in to meet a 
particular deadline.
    At the Mayor's direction, we also are undertaking an 
accelerated program this summer to make targeted repairs to 
another 33 schools. This work program was originally 
anticipated to begin in fiscal year 2008 but has been moved 
forward so that the most serious problems at many of the 
schools can be addressed sooner.
    For the longer-term, I am focused on recruiting the staff 
necessary to run the large-scale modernization effort and 
ensure successful, cost-effective projects that are completed 
on a timely basis.
    Within the larger charge to my office of systemwide school 
modernization, my staff and I are in the process of analyzing 
the school system's Master Facilities Plan. We plan to present 
to the Mayor and the Council any proposed revisions to the 
Master Facilities Plan as soon as practical. Going into this, 
we know that the Master Facilities Plan was designed as a 10- 
to 15-year program. We need much faster results because we 
believe it is not fair to ask or expect that students and 
teachers wait this long for relief.
    It is my intention that the new D.C. Public School 
facilities are on par with the best in the world. We will 
engage the most talented architects and engineers in the Nation 
to raise the design standards for D.C. Public Schools. We will 
develop these design standards and best practices with the help 
of groups like the American Institute of Architects. We will 
examine what works and what does not.
    We will hire District businesses and residents to build 
these facilities. We will develop internships and special 
programs for students interested in architecture, engineering, 
environmental, historic preservation, business practices, as 
well as, obviously, construction. Perhaps, most important, we 
plan to include students and parents at every stage possible as 
we move forward with our modernization and renovation campaign.
    As I mentioned previously, I know that our success will be 
predicated upon building the best and brightest staff, hiring 
the most qualified contractors, and changing the culture in the 
school facilities operation. The same standards and formulas 
were applied when we developed the new Convention Center in 
Washington as well as the Washington Nationals Ballpark 
currently under construction. We will use the same approach to 
instill a results-based, no excuses, bottom-line attitude to 
the tasks ahead.
    With regard to benchmarks, by this time next year, each 
school in the system will be functional, with all major 
systems--heating, cooling, drinking water, bathrooms, roofs 
that do not leak, and all other quality of life essentials--
fully operational. In addition, plans for both new and 
modernized facilities will be well underway after an exhaustive 
and inclusive community design review process.
    I am excited to begin the process with Chancellor Rhee, 
principals, parents, most importantly, students, and the larger 
community to develop and modernize school facilities that will 
be true centers of education and community life in our city.
    Mr. Chairman, Members of the Subcommittee, that concludes 
my testimony. I look forward to any questions.
    Senator Akaka. Thank you very much, Mr. Lew.
    I have some questions to ask. After I do that, I want to 
introduce our Senator from Louisiana to make her remarks and 
ask any questions she may have at that time.
    Mayor Adrian Fenty, I am really glad to hear what I did 
from your team. It appears that you have a good beginning, and 
a good team. As I mentioned in my opening statement, in 1989, 
the Committee on Public Education released a 180-page report 
entitled, ``Our Children, Our Future.'' The report detailed the 
challenges facing DCPS and offered recommendations to reform 
the school system. Since then, five additional reform efforts 
have come and gone. However, the challenges remain largely the 
same, and in some cases have gotten worse.
    I know you mentioned or it has been mentioned that one of 
your aims is accountability. What accountability standards, 
performance measures, and benchmarks have you established or 
will establish to monitor the effectiveness of your team in the 
short- and long-term?
    Mayor Fenty. Well, it is a great question, Mr. Chairman, 
and thank you again for having us and asking it. We believe 
that despite all of the studies and different recommendations 
that the success behind this particular plan is at least two-
fold. One, that there is accountability from the top. So in the 
past, when someone would do something wrong, it was difficult 
to know who to blame. That is no longer the case. I alone have 
said that if something is not right in the system, I can be 
held accountable. As we all know, every 4 years or so, the 
Mayor of the District of Columbia has to go back to the voters 
to keep his or her job. We think that is an important part of 
the accountability here.
    The second thing I want to put on the record is that we 
didn't stop at saying the buck stops at the Mayor. We really 
thought that peeling away school facilities, State education 
functions, and the ombudsman role was critical in making sure 
that the Chancellor had as her sole focus the curriculum, the 
test scores, the operations of the classrooms and schools under 
her and that she could focus on those things.
    Some of the benchmarks were mentioned in the Chancellor's 
own testimony, as she talked about making sure that there are 
written benchmarks for every position, making sure that we are 
training our staff better, that we have instruction, that we 
are giving our schools autonomy.
    The legislation envisions that in 5 years, we will come 
back, but we envision that every year, at the least, we will 
come back and check how test scores are improving, whether or 
not we are recruiting more teachers into the system, whether or 
not we are meeting the standards of No Child Left Behind, etc. 
We also believe through the Council's oversight process, 
through going into the community repeatedly, and then through 
the budget process which comes up annually through the City 
Council, we will have opportunities to show we are meeting 
those standards and report that back to the community.
    Senator Akaka. Thank you. Ms. Rhee, in your new role as 
Chancellor, you bring a fresh perspective to a troubled system. 
As I understand it, troubled urban education systems is your 
area of expertise. Now, a simple question to begin with is 
after a month on the job, what is your initial assessment?
    Ms. Rhee. I am feeling extraordinarily confident and 
hopeful right now about our ability to turn this system around. 
Having been here for 4 weeks and having spent the majority of 
my time in schools and in neighborhoods talking to students, 
parents, teachers, principals, and community members, I don't 
think I can have anything but optimism at this point.
    There is a tremendous will right now amongst the public in 
the District to ensure that its schools are successful, and I 
have been spending a lot of time with students recently. 
Yesterday, I was at Ballou Senior High School, which is 
probably one of the most troubled high schools that we have in 
the District, and I sat in a room with a group of students. The 
building there is literally crumbling. Paint is peeling off the 
walls. Ceiling tiles are falling down. There is no air 
conditioning in that building. The food is not great. I mean, 
there are sort of a myriad of problems.
    And I sat with this group of students and I said to them, 
what do you think I can do to help improve the schools, and 
they looked at me and they said, ``Bring us great teachers.'' 
It was poignant to me because they didn't say we need a subway 
or a Coke machine or something like that. They were 
extraordinarily focused on what I think is the right thing, 
which is how do we bring great educators into the system.
    And as I have talked to their parents and as I have talked 
to businesses, everyone in this city understands that human 
capital and bringing great talent into this system and 
retaining the great talent that we have is really going to be 
critical to our success. So seeing that alignment through 
everyone in the system, seeing the hope that people have and 
their willingness to literally do anything that it is going to 
take to make the system succeed, I think gives me a tremendous 
amount of confidence right now.
    Senator Akaka. Well, that is great to hear and to hear you 
have visited with the school. I, like you, am amazed at that 
answer.
    Ms. Rhee. Yes.
    Senator Akaka. Yet somebody was thoughtful enough to know 
what was needed, and for it to come from students, that is 
really great and so I thank you so much for that response.
    At this time, I have more questions to ask, but I am so 
happy to have the Senator from Louisiana, Mary Landrieu, here 
to join us. I know she always has remarks to make and she 
always has good questions to ask, so this is your time, 
Senator.

             OPENING STATEMENT OF SENATOR LANDRIEU

    Senator Landrieu. Thank you, Senator. I really appreciate 
you calling the hearing and your oversight and partnership with 
this great team that the Mayor has assembled and the leaders of 
the District. It is good to see all of you.
    I just want to say a few things briefly and then have just 
one or two questions. Mayor, I think it really is an 
extraordinary effort to take on the challenge of retooling and 
redesigning the school system. But obviously, and I am sure 
that your testimony offered this when you began, you have 
recognized the need for significant improvement.
    These numbers that are reflective of the District's 
situation, although they are very stark, are not unique in the 
sense that we have this challenge and difficulty throughout 
many parts of the country. In fact, we in New Orleans, as you 
well know, are going through a monumental shift, partly driven 
by our need for reform and to improve achievement, and then 
partly due by the results of a terrible storm, and floods that 
are forcing us to rethink everything about our city.
    But these numbers are really startling, that only 43 
percent of the students in the District graduate from high 
school within 5 years. The national average is 68 percent. 
Twenty-nine percent enrolled in post-secondary education. Only 
9 percent attending a secondary degree within 5 years of 
enrolling in college. And that is an average. I think I read 
here that it is only 6 percent of males and 12 percent of 
females.
    So if people challenge us, and ask us why we are in some 
urgency to fix this system, is there anyone listening in this 
room that could argue that what we have is working?
    Now, having said that, I spent years, as you know, helping 
the chair working on this issue as Ranking Member of DC 
Appropriations Subcommittee, trying to figure out what we could 
do from Congress to push, to prod, to be a partner, to hear 
good things coming from the District, because Congress does 
have a role in supporting not just the District of Columbia, 
but in helping other districts in the country, as well, and we 
are doing that through major breakthrough laws like No Child 
Left Behind. Senator Lieberman, Senator Coleman, and I just 
introduced with your wonderful new Superintendent supporting 
us, the Chancellor supporting us, the All Children Can Achieve 
bill that we introduced yesterday, which will bring into focus 
on the issue of getting the best teachers in the classrooms 
where they are needed the most, as well as many other things.
    We must keep in mind, that these improvements must come 
from traditional public schools, and some of our charter 
schools I have worked to push for, the numbers aren't as high 
as they should be or we would like to see for charter schools 
and independent public schools and entrepreneurial. So clearly, 
even though there have been some good steps that have been 
taken, Mr. Mayor, I just want to commend you for trying to take 
this to another level, because these numbers have got to 
improve and we have got to get more children graduated, into 
college, and through college. And we have got, I think, to be 
open to--I don't want to use the word ``experiment,'' but I 
will use the word ``try,''--try some new things. Try some 
different things. Obviously, what we are doing is not working.
    And the second thing I would like to say about facilities, 
the District is fortunate in one sense--in many senses--that 
you do have facilities that are available, if we could just get 
them into the right uses, with the right groups. There is 
excess space. Sam Brownback and I had a hearing, Senator. I 
think we found five million square feet of excess space in D.C. 
Schools. I see Dr. Gandhi. That space can be used more 
appropriately for innovation, etc.
    I want to continue to press on this authority, this 
facilities authority. Maybe our teachers or administrators are 
too busy about the buildings and not busy enough about the 
schools, so let somebody in the real estate business manage the 
schools and let us get about the business of getting teachers 
trained and educating children.
    And the final point is this Federal law that we are 
operating under now, all of us are operating under, requires 
there to be a separation between the management of schools on a 
day-to-day basis and then the independent sort of State 
authority. Obviously, the District is unique. It is not a State 
now. Maybe it will be one day, but it is not now. But there 
needs to be some independence.
    So, Mr. Mayor, how did we end up working through this to 
make sure that the District is in compliance as all school 
systems are required to be in having that issue dealt with?
    Mayor Fenty. Thank you very much, Senator Landrieu. In 
State Superintendent Gist's testimony, she really addressed 
this issue, but I do want to, for the record, state that the 
thrust of the SEA/LEA division in the legislation really came 
out of working with you and your staff and the great advocacy 
you have done on this point for years now.
    Essentially, the structure, we think, brings the District 
into compliance because we have separated out the local 
education functions from the State-level education functions. 
Essentially, the Chancellor and the State Superintendent report 
to different people, as has not been the case in the past. We 
will completely separate all State-level functions from the 
LEA, and I think we have until September 10 to do so.
    We think by having different people in charge, by 
separating out the functions completely, we have addressed the 
lion's share of the problem, and as Ms. Gist's testimony 
relates, we think that we follow the model of several States, 
including New Mexico, Texas, and others, where the governor was 
responsible for appointing a chief State school officer, but we 
retain an elected State Board of Education who has substantive 
policy and standard recommendations and establishment of a 
strong and clear framework that we have to implement.
    So we think we have now, for the first time in the system's 
history, established that type of independence, despite the 
fact that we are not yet a State.
    Senator Landrieu. Thank you. I will finally just add that I 
look forward to working with Chairman Akaka, and continuing to 
be a reliable and respectful partner with you all to help us to 
really lift the quality of education that children can receive 
in the District. And again, it is a challenge throughout many 
parts of our country, but you all are in a special circumstance 
to be able to, I think, appropriately call on the resources of 
this Congress to help you in a very direct way that other 
jurisdictions don't have that ability. And frankly, I know some 
of them that would like to have that ability.
    So please come to us. We want to be a good partner in your 
efforts and look forward to continuing to really bring up these 
benchmarks and grades and academic achievements of all of our 
children, and for the economic future of the city. I think this 
is just crucial to get a fine, operating, excellent school in 
every neighborhood, accessible to the students and making 
parents comfortable and happy with living here in the District 
and not having to move other places to search for something 
that they can't find right in their own neighborhood. So thank 
you very much.
    Mayor Fenty. Thank you.
    Senator Akaka. Thank you very much, Senator Landrieu, for 
your comments and your statement.
    The reporting mechanisms on DCPS data, I think you would 
agree, are flawed. Be it special education data, DCPS 
contracts, there is not an exact figure. When we talk about 
DCPS contracts, I understand it is in a mess. In the area of 
student achievement, the method for tracking and reporting 
accurate, verifiable, and transparent information are not 
there.
    So here is the question, in two parts. One is, what steps 
have each of you taken to address this issue? Within your areas 
as Mayor, Chancellor, President of the Board, as Deputy Mayor, 
and also Executive Director of Facilities, State Superintendent 
of Education, what steps have each of you taken to address this 
issue? And second, what plans do you have to implement systems 
that will be able to provide accurate, transparent, and 
verifiable data?
    Mr. Mayor.
    Mayor Fenty. As you are aware, Chairman, under my 
predecessor Anthony Williams and the CFO, the District's 
finances have rebounded tremendously. But one of the biggest 
threats to our financial stability is actually the annual audit 
and specifically what has been identified by auditors in it in 
the past year as a material weakness related to the school 
system. And one of the big problems in the school system over 
the past couple years has been the inability to keep accurate 
track of our personnel, our records, and everything that 
relates to that.
    One of the things that we have begun--just since June 12, 
when we took over the system, is to really make sure that we 
are using technology and best practices to keep track of those 
personnel records, one, because the Chancellor is going to need 
them to pay people and everything else, but two, because, 
again, it is at the heart of this material weakness which we 
have to get rid of both for our own audit purposes and for the 
U.S. Department of Education. So literally, we have a team that 
has gone into the DCPS personnel office and found boxes of 
personnel files piled high. This is something you may imagine 
from 50 years ago. And we have a technology team that is 
working hard to put them all into computers and to do this 
hopefully in 6 to 8 weeks.
    So this is the type of transformation that we are having to 
engage in at the school system, but it is going to have 
dramatic results immediately. I will yield to the Chancellor to 
talk a little bit about what she has found in the school 
system.
    Senator Akaka. Ms. Rhee.
    Ms. Rhee. As you know, for years, the D.C. Public Schools 
have been failing the children of the city, and unfortunately, 
the only people who have been suffering any ramifications or 
consequences of that failure have been the students whose life 
chances and life outcomes are negatively impacted by the fact 
that we are not providing them with the education they deserve.
    And so when I agreed to take this job, one of the major 
drivers for me was the fact that the Mayor is solely focused on 
accountability at all levels. So we have to bring that 
accountability in a real way to the school system.
    What we have begun to do is we know that we have to sit 
down with every single person who is employed in our system, 
have a very clear job description, and set very clear and 
measurable outcomes for what we expect to see. These all have 
to be measurable. And then we have to have tracking mechanisms 
in place so that we can see where progress is being made or not 
made, and ultimately, we have to hold people accountable to 
this, meaning that their performance and how their performance 
is evaluated has to be tied to these goals.
    But the bottom line as I have walked through the District 
and talked to people over the last 4 weeks, people don't have a 
strong sense of what they are responsible for. So if you ask 
multiple people in the District very simple things like, how 
many students do we have, or how do we ensure that we can move 
out of corrective action status on our bilingual education, the 
people who I would think would have the answers to those don't. 
And it is, I think, because of this lack of clarity around who 
is ultimately responsible for these things.
    So the process that we are going to go through over the 
next few months of clarifying those expectations and setting 
very measurable goals for every employee in the system, I think 
is going to be critical in terms of moving forward and ensuring 
that we have the data necessary to ensure student achievement.
    Senator Akaka. Thank you. Mr. Bobb.
    Mr. Bobb. From the State's standpoint, with respect to how 
we track students and come up with the number of students in 
the school system, there is an annual audit that takes place to 
determine the number of students in the school system. But at 
the end of the day, as was stated, we really do have to have a 
system to be significantly driven by technology and there is a 
need to improve technology across the entire system so that we 
are not just tracking students at the beginning of the school 
year and at the end of the school year, but that we are in a 
position to not only track the number of students who are 
coming into the system, but have a robust system wherein we can 
track students as they move throughout the system, throughout 
the course of the school year.
    This is not only tied to where students are living, but it 
also has implications with respect to cost and budgetary 
issues, and so there is definitely a need for significant 
investment across the entire school system with technology, 
state-of-the-art technology that not only tracks students, but 
student movement, students coming into the system, but 
technology that addresses the issues of personnel moves, 
personnel systems. The financial systems definitely need to be 
significantly improved, not just from a technology standpoint, 
but also from a human resources standpoint, as well.
    Senator Akaka. Thank you. Mr. Reinoso.
    Mr. Reinoso. My office has been engaged in a number of 
activities, but let me focus on some of the interagency work 
that we have been doing because I think one of the powers of 
this new Deputy Mayor position is the ability to coordinate and 
look across all city agencies. And so through the newly-created 
Interagency Collaboration and Integrated Services Commission, 
we will be bringing together the heads of all youth-serving 
agencies to work together and to hold them accountable as a 
group on youth development-related measures. So integrating 
those measures with the education measures that we will track 
at the State level, and at the DCPS level, will allow us to 
better coordinate the delivery of human services in support of 
the reform of our school system, and that is a critical 
opportunity that hasn't previously existed within the city.
    As an example, a subgroup of that effort is a group we are 
calling the Reconnecting Disconnected Youth Task Force, which 
has been engaged on understanding the data around the 
population of students who have dropped out of school and are 
unemployed. This is a group that obviously is at high risk and 
needs interventions, and as a city, we haven't engaged in a 
systematic way of looking at who these kids are and at what 
points they disconnect and what interactions they have had 
either with the juvenile justice system or with other human 
services agencies so that we can plan targeted intervention 
strategies that affect this population. And so that initiative 
is underway. We are currently reviewing the data through that 
system.
    Ms. Gist will, I am sure, speak to some of the State-level 
data systems that we are working on, but we will be working in 
coordination, again, to ensure that effort can be integrated 
with other city-wide data systems, because again, reforming the 
education system will go beyond the silo of the public school 
system or the silo of the individual LEAs to looking across 
that to address the larger social problems that can contribute 
to a failed education.
    Senator Akaka. Thank you very much. Superintendent Gist.
    Ms. Gist. Yes. From the State perspective, it is our 
responsibility to ensure that we have strong systems in place, 
that we ensure that we have highly-qualified teachers in every 
school in the District of Columbia, that we have strong 
standards that are aligned both in terms of our standards, our 
service delivery, and our assessment, but also from the life of 
a learner, so from early childhood pre-K through 12th grade, 
post-secondary, and also adult education.
    We also are responsible for ensuring that there is 
consistent reporting to schools, to parents and students, to 
policy makers, to the U.S. Department of Education, and, of 
course, to Congress. We also are responsible for interventions 
and supports when we have challenges with performance and 
accountability for student achievement ultimately rests with 
the State.
    Now, that summary combined with everything that the panel 
has described so far has to have a tool in order to make that 
happen, and I am really pleased to tell you that the Mayor has 
set aside $19 million over the next 5 years for the development 
of a data warehouse to enable us to have the technology to use 
data in the way that everyone has described, and in addition, 
we are very pleased that we received one of the U.S. Department 
of Education's data grants. They were recently announced, and 
we received a $5.7 million grant.
    We have a steering committee that is in place that is 
working on the development of that data warehouse. That 
steering committee represents the D.C. Public School System, 
the charter schools, our higher education community, our early 
childhood programs, and so it will truly be a data warehouse 
that will keep data about students, student achievement, 
teachers, and schools at every stage of a learner's experience 
in the District.
    Senator Akaka. Thank you very much. Mr. Lew.
    Mr. Lew. We are currently examining all of the existing 
management systems for data, for information, for where the 
contracts are, for where every dollar is located. At the same 
time, we are setting up new systems as we go forward. We want 
to get to the point where every repair order can be tracked, 
when it was called in, when it was triaged, when it was 
expected to be delivered, and when the site was inspected, when 
the monies are made available, all of these kind of conditions 
that are kind of spread out and diffused at this point. We are 
looking to bring our data management process up to 21st Century 
standards.
    It is going to take us a couple of months to get our arms 
around all of this and to put in place all of the necessary 
systems so we can go forward and manage it like a business. At 
this point, all I can tell you is that what you read in the 
newspapers is true. The system is broken.
    Senator Akaka. Thank you. Before I call on my colleague, 
Senator Carper, let me ask this question of the Mayor, the 
Chancellor, and the Acting Deputy Mayor. It seems that DCPS has 
been in crisis mode to address these issues for some years. As 
we all know, it is rare that crisis mode decisions are 
sustainable solutions. How do you plan to address the short- 
and long-term problems while creating sustainable policies and 
solutions?
    Mayor Fenty. Well, let me begin, and then I will yield to 
the people on the front lines. There are a couple of things 
that have already begun. One, there is a real need to closely 
examine and then quickly make improvements to both the training 
and the recruitment and retention of personnel. As any big city 
mayor will tell you, the No. 1 thing I have to do is hire good 
people. We have done it at the top, but the Chancellor has to 
be able to do that throughout the system.
    Two, we have to make sure that as we go forward, we make 
some of the very difficult decisions early on. As we get into 
the next school year, the longer we get into running this 
system, the more we will have to focus on the day-to-day. But 
we know as a team that there are some really difficult 
decisions that need to be made about school autonomy, as I 
think Senator Landrieu said, thinking outside the box, trying 
new things, and when the Chancellor was interviewing for the 
position, one of the things we agreed on 100 percent was that 
this wasn't the time for either of us to think about how long 
we could be the Chancellor or the Mayor. This is the time to 
try some very bold things around personnel, around school 
autonomy, around facilities, and that is exactly what we plan 
to do, and we are going to have to do it very quickly.
    I will yield to the Chancellor Rhee.
    Senator Akaka. Thank you. Chancellor Rhee.
    Ms. Rhee. It is interesting that you say that we have been 
operating in crisis mode, because I think that what has struck 
me from being in the District for 4 weeks is the actual 
complete lack of urgency with which we are operating, and this 
is a problem because every decision that we are making at the 
District level, every decision that is being made at the school 
level, is impacting kids and their lives. Given that is the 
gravity of the situation, I would expect that our employees 
would be operating in a manner that understands that and we are 
not currently.
    Right now in the District, we have a culture of compliance 
instead of a culture that is focused on quality, and that would 
be one thing if we could actually be in compliance with 
anything which we are currently not. So we do really have to 
shift our focus towards one in which we are looking at quality, 
the impact that our actions are having on students.
    I will say also that if you look at the way in which we are 
working on a day-to-day basis, we are very much in reactive 
mode. So as problems arise, we are trying to solve those 
problems, but in trying to do that, what we have failed to do 
is actually think longer-term, think more strategically, and be 
more proactive about how we are going to ensure that we don't 
end up in this situation where we have the consistent backlogs 
of facility orders, etc.
    So my hope is that we can, as we are moving forward, take 
the time and be very disciplined about creating longer-term 
strategic plans around how we are going to proceed in these 
areas so that we can have the foresight to do these things 
carefully and really, then, sort of balance that against 
working with a true sense of urgency.
    Senator Akaka. Thank you.
    Mr. Reinoso. Along similar lines, I want to borrow an 
analogy that Mr. Lew used in his testimony about a real 
physical problem, but I think one that pertains to the broader 
problem. You can't run into a school building and say the 
ceiling needs to be fixed and then work quickly to fix the 
building and walk out without having asked the question, have 
you addressed the real core of the problem, being roof repairs 
and gutters, et cetera, and that is how the management by 
crisis has created a false kind of energy--an urgency that 
isn't grounded in long-term solutions but an urgency that is 
reactive, as the Chancellor said, and that is something that 
has affected efforts in the past to turn around academic 
programs and schools--a lot of activity at the surface without 
addressing and putting in place the long-term foundation.
    So what we have to do is strike that balance between urgent 
interventions while building a culture that supports long-term 
solutions, and ultimately, I think that is the issue. It is 
about a culture of accountability that isn't about ``gotcha,'' 
but it is an accountability that tells you, that focuses your 
work every day, wherever you are in the system, around 
education and then provides you targeted support that 
recognizes that, historically, the city hasn't provided the 
school district or its students the professional development 
and the other supports that families need, that teachers need, 
etc.
    And so the current structure that the Mayor has put forth 
creates the focus at each level of the organization, with the 
Chancellor focused exclusively on what is going on in the 
classroom, a facilities director focused exclusively on the 
facilities issues, State Superintendent now truly focused at 
the State level with the strong community support of the State 
Board in setting those State expectations, and then the Deputy 
Mayor helping to provide that big picture, unifying and 
coordinating resources city-wide. And so I think that framework 
will allow us to, in fact, respond with real urgency as we 
implement long-term solutions at all levels of the 
organization.
    Senator Akaka. Thank you. And now I would like to call on 
my friend, Senator Carper, for his statement or questions, as 
well.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Thank you, Mr. Chairman, and thanks for 
putting this all together today. I am just going to telegraph 
my pitch, if I could.
    I am an old governor. I have been here for about 6\1/2\ 
years with Senator Akaka and my colleagues, but I still think 
like a governor and am described by some of my colleagues as a 
recovering governor. But I have a great deal of interest as a 
governor in what we are doing in the schools in our State and, 
frankly, in the country. I served for a while as chairman of 
the National Governors Association. The focus of my year as 
chairman was really education and a couple of aspects of what 
we are doing to strengthen our schools.
    I would like to have a chance to hear some of your thoughts 
or your advice for us as we approach the reauthorization of No 
Child Left Behind. How can we do it in a way that would be 
especially constructive for the students and the families that 
you are here to represent?
    A little bit on early childhood. What are you doing with 
respect to early childhood? We focus a whole lot on K to 12. 
One of my old colleagues as governor and here in the U.S. 
Senate, Zell Miller from Georgia, used to say, if I had it to 
do all over again, I don't think I would fund the 12th grade. 
We would just take all those resources and put it in zero to 
five. There is actually some merit for that.
    I would like to hear a little bit about what you are doing 
to attract and retain good teachers. We have in my State and 
other States, good teachers have a propensity to end up in the 
good schools with better pay and students who are more likely 
to succeed.
    I would like to hear from you about what you are doing to 
be able to identify best practices and then to replicate those 
best practices from school to school.
    And then maybe a little bit about accountability. I want to 
hear about your standards, the standards that you already have, 
if you have them set, how you regard the rigor of those 
standards and assessing performance. I guess all of your 
students take the NAPE, in grades four and eight. Some of the 
States dumbed down their standards in order to be able to 
demonstrate that they are doing well against their standards, 
but we catch them when they take the NAPE, because if they are 
doing great on their State tests but poorly on the NAPEs, that 
suggests that maybe they don't have the most rigorous 
standards. So I would like to talk about how you deal with 
that.
    But before we do any of that, I would like to ask, have any 
of you been to Perryville, Maryland?
    Mayor Fenty. Is that right off of 95, near Havre de Grace?
    Senator Carper. Yes.
    Mayor Fenty. Yes, I have.
    Senator Carper. Has anyone been to Perryville, Maryland, 
this summer? Have any of you been in Perryville this summer to 
swim by Pig Run?
    Mayor Fenty. I know I have. Have any of you?
    [Laughter.]
    You are not going to read my time into the record, are you, 
Senator?
    [Laughter.]
    Senator Carper. My son, Christopher, is going to be a 
sophomore in college, Mr. Chairman, and he has gotten into 
triathalons, half-triathalons, and mini-triathalons, and he 
participated in that race, finished in the top 10 percent.
    Mayor Fenty. Wow.
    Senator Carper. He says, next year, I would like for you to 
do that with me, Dad. And I try to stay in good shape. I said 
it would probably kill me, but I know you were there and 
participated and I applaud you for that. It is nice to see you 
here today. Welcome.
    Let us talk about reauthorizing No Child Left Behind.
    Ms. Rhee. Sure.
    Senator Carper. Do you have some advice for us as we 
approach the reauthorization of No Child Left Behind?
    Ms. Rhee. Yes. I think there are two main things that I 
think about as we are discussing the reauthorization, and I 
think that it is incredibly important for policy to take into 
account the practicalities that are going on in the District, 
so I will talk about two main areas here.
    The first is around the current provision within NCLB 
around highly-qualified teachers. I think the positive thing 
that this provision has one is really to bring a focus on 
qualified teachers in a way that did not exist before NCLB. 
There is no doubt about that. From having worked with most of 
the urban districts across the country before and after the 
passage of this law, I know that there is a focus on high-
quality instruction in a way that there was not before.
    However, I think that we need to sort of take the next 
iteration of that and focus not on the qualifications 
necessarily of someone coming into this system, but rather 
looking at how effective are they once they are in the 
classroom, because I think we have seen that experience, 
degrees, those things don't actually correlate directly to 
student achievement. Those inputs can't tell us, unfortunately, 
whether or not somebody is going to be an effective teacher. So 
I think we have to move much more towards a system where we are 
looking specifically at student achievement data so it is 
related to teacher performance and really then gauge teacher 
effectiveness on that. So that is the first thing.
    I would say the second thing, I think--
    Senator Carper. Let me interrupt. So the teacher 
performance would be evaluated, at least in part, by student 
progress?
    Ms. Rhee. Correct. As opposed to credentials or degrees 
coming in.
    Senator Carper. OK. Thank you.
    Ms. Rhee. The second piece, I think, that is important to 
look at is AYP. I think one of the important things that has 
happened is that we are now looking at students broken out by 
subgroup. I think this is incredibly important, because, as you 
know, the achievement gap in this country is severe and we have 
lots of districts across the country who are serving some 
students well but not others, and that is often masked if you 
don't break out by subgroups. So I think that is an incredibly 
important thing that has happened.
    I think, though, again, when you look at the tactical 
level, if you are a school that has met 21 out of 22 
performance indicators, you still don't meet AYP, which is very 
different than a school who has only met 7 out of 22 
indicators, and so I think there has to be more granularity 
looking at the progress of schools and not just in the sort of 
black and white, met AYP or didn't, because I think within 
those various indicators, you can see a lot.
    Senator Carper. And when you are talking about the progress 
that is being made in schools, can you sort of weave into that 
any comments on the proposed--going to a growth model as part--
--
    Ms. Rhee. Yes.
    Senator Carper. Is that what you are alluding to?
    Ms. Rhee. I think it is incredibly important to look at a 
growth model because you want to make sure--and this is going 
to your previous point of making sure that we are incenting the 
best teachers to go to the schools that need great teachers the 
most. And I think that if you just look at the data thing, how 
many of your kids are on grade level, well, then obviously that 
is much easier to achieve if you are looking at higher-
performing schools. What is more important is to look at where 
the students started when they came into a particular teacher's 
class or into a particular school and to understand how much 
growth they saw over that given year. I think that moving 
toward that model is incredibly important and does not in any 
way handicap the lower-performing schools from attracting the 
best talent.
    Senator Carper. Okay, good. Mr. Chairman, my time has 
expired. Will there be another round of questions?
    Senator Akaka. Do you have more questions?
    Senator Carper. I do.
    Senator Akaka. Yes.
    Senator Carper. Okay, thank you. Let me come back in the 
next round of questions and I will follow up on some of the 
points that were raised. Thanks very much.
    Senator Akaka. Thank you very much, Senator Carper.
    Mr. Lew, while your office will be responsible for 
modernization and new school construction, I understand that 
minor repair and maintenance will remain with DCPS, which still 
brings up the issues of accountability in maintaining schools. 
There does not seem to be a clear division of these 
responsibilities. Who will be responsible for the maintenance 
of the public school facilities, and have schools received 
information and direction on how to work with your office to 
have their maintenance needs resolved?
    Mr. Lew. Mr. Chairman, the legislation speaks of 
modernization focused on the new facilities, the major 
renovation projects, and defines maintenance, routine 
maintenance as not being part of that responsibility. It is my 
belief, and I believe it is also the Mayor's belief, that given 
the state of the schools, with the backlog of repairs, it is 
important that this office tackle all of the repairs 
outstanding, then put into place a system going forward that 
can correct these problems when they occur, not 2 years or 3 
years later.
    I have jokingly said at hearings that I would like to apply 
my wife's standard, which is you call the plumber, they come 
that day, they fix it, it is done, not 2 years later, not 3 
years later. It has gotten to the point where school system 
employees are so demoralized that they don't even submit work 
orders because they know they are not going to get responses.
    I think that we can talk about how the future will go once 
we resolve the present, and the only way the present will get 
resolved at this point is if my office tackles this maintenance 
backlog, clears the slate, gets all of the backlogged repairs 
out of there, and then establishes a new system and new order, 
and helps restructure that organization so that maintenance 
becomes truly maintenance. Janitorial and custodial services 
stay with the schools. Repairs are conducted in a professional 
way and in a timely way. So there is still some communication 
going back and forth between the Council and our offices and 
the Mayor as to possibly redefining what my office is charged 
with, at least for the near term.
    Senator Akaka. Thank you. Mr. Bobb, I am pleased to see 
that the Board intends to promote early childhood education and 
literacy as two critical issues, and I am also pleased to see 
or to hear a commitment on the part of the Board to set 
rigorous graduation requirements. The very low proficiency 
ratings across DCPS, the high dropout rate that was mentioned, 
and the lack of a strong educational foundation means many of 
the students are far behind the curve. A lot of work must be 
done to prepare those students to meet the rigorous standard 
for graduation that I think you intend to set.
    What effort is the Board taking to promote the needs of the 
students who have fallen behind in preparation for graduation?
    Mr. Bobb. Previously, the Board did approve very rigorous 
graduation standards and those are on the books now. Those 
graduation standards require students to take more courses in 
math and science and also requires more support services for 
students who are falling behind in various classes.
    But I might add that the State Board, while it promotes 
higher standards, cannot do it in a vacuum. It cannot sit in 
its room and then promote these higher standards for 
graduation, for dropout, for reading, et cetera, without having 
a real partnership with the Chancellor and her team and her 
staff, because at the end of the day, it does the system no 
good to set very high standards unless the school, the State 
Board, understands the practicality of actually implementing 
those standards at the level of the Chancellor.
    So, whenever the State Board promulgates higher standards 
for graduation, for student achievement, et cetera, it has to 
do so in concert with the Chancellor and her team so that we 
are working together to reach the higher standards, and we can 
also put in the services that are needed to assist these 
students in reaching these higher standards so that we are not 
working as a school system, as a State Board of Education, in a 
vacuum, but are working cooperatively and we are doing it 
together.
    Senator Akaka. Thank you. I have a question here for Ms. 
Gist. The U.S. Department of Education has placed DCPS on its 
grantee high-risk list. In a June 28 letter, the Department 
lays out the explanation of why DCPS is on the high-risk list, 
the required corrective action necessary, and ramifications for 
non-compliance. What steps are you taking to develop and 
implement a corrective action plan and comply with the U.S. 
Department of Education's requirements?
    Ms. Gist. Removing the designation of the high-risk grantee 
is one of our highest priorities, and we do have a corrective 
action plan in place that we have worked very closely with the 
Department of Education to create. The Department has been 
incredibly supportive of DCPS over the recent years in its role 
as both the LEA and the SEA and has actually detailed an 
employee over to DCPS to the SEA to assist with the development 
of that corrective action plan and over the past few months has 
begun implementing that plan.
    And so once the legislation passed, I began working closely 
with the Chancellor and her senior staff and with the U.S. 
Department of Education to take a look at that corrective 
action plan and to begin to monitor how we are doing on that 
plan.
    Much of the work that needs to happen to remove the status 
of high-risk grantee needs to happen at both the LEA level and 
the SEA level. So while the designation is a designation of the 
SEA and while the SEA is ultimately responsible for ensuring 
that all the improvements take place, the work is work that the 
SEA as an entity needs to change in its practices as well as 
being work that all of the LEAs need to improve in their 
practices.
    Much of the work that needs to happen is improving the 
efficiency of our bureaucracy and our documentation, our 
monitoring of time and attendance toward grants, for example, 
allowable cost. So these are fixable problems. I am very 
confident--the Chancellor and I are very confident that we can 
get this designation removed, and this is a priority of the 
Mayor, as well. He recently held one of his CAPSTAT sessions 
specifically focused on these issues. And we feel like we are 
moving in the right direction to get that designation removed.
    Senator Akaka. Thank you very much. Senator Carper.
    Senator Carper. Thanks, Mr. Chairman. The second point that 
I wanted to get into was early childhood. My boys were born a 
couple years before I became governor, and I had the 
opportunity to watch them the first few years of their life 
just be little sponges and just suck up incredible amounts of 
information in their first few years before they were eligible 
to go into kindergarten. One of the things we sought to do in 
our State, and George Voinovich had done this earlier in Ohio, 
was to fully fund Head Start for all 4-year-olds who lived in 
poverty using State money to make up the difference.
    We also provided extra learning time money to school 
districts and we said, we don't care how you use it, but we 
want you to demonstrate progress. We are going to hold you 
accountable. But, we said, you can use this extra learning time 
money for longer school days, longer school weeks, Saturday 
academies, summer institutes, whatever. You can also use it for 
pre-K for ages three and four. But what we set up was a vehicle 
by which we could track performance and just to see over a 
number of periods of years whether it works.
    And we found that taking kids from some of the most 
disadvantaged backgrounds at the age of three and putting them 
in early quality pre-K programs and then full-day kindergarten 
and first grade, second, third grade with enrichment, longer 
school days, that kind of thing, we found that when we tested 
them with the State test in the third grade, they performed as 
well as kids from two-parent intact families who had every 
advantage in life compared to these youngsters. If I wasn't a 
believer in early education before, that sure made me one.
    We bemoan the fact that we have a lot of kids who drop out, 
who are disruptive in school when they get into middle school 
and high school. I think we drop the ball way before that. It 
is not just the schools, it is parents, many of whom do not do 
a very good job of preparing their children for education or 
being a partner with their children's teachers and so forth.
    But just talk to me about where you are on early 
childhood--maybe there is something we can do in terms of 
funding that can help you in that regard.
    Ms. Rhee. Absolutely. If you look at the data, which I am 
sure you have seen, kids from low-income communities come to 
school with up to 10,000 words less, having exposure to 10,000 
words less than kids from more affluent communities.
    Senator Carper. Chris Dodd argues to me that it is more 
than that. I have said it may be as high as 25,000. He says it 
is even higher than that, but I know what you mean.
    Ms. Rhee. Yes. So, I mean, this is going to impact their 
ability to be successful. It impacts their ability to read 
quicker. And what we know is that kids from home environments 
that are print-rich are at a significant advantage when it 
comes to educational outcomes. So we really believe that it is 
critical that we are thinking about school readiness. Before we 
even have kids step foot into a kindergarten classroom, what 
can we do to ensure that they are as ready as possible?
    I would say that, having been here for 4 weeks, my major 
concerns when it comes to early childhood education are sort of 
two-fold. One, how do we ensure that we have high quality? 
Right now, we need to look to outside providers and other folks 
to help us with the early childhood piece, and so what I think 
is critical to us as a District is ensuring that we put systems 
and processes in place to ensure that any outside providers who 
might be adding capacity to the District in terms of providing 
services to pre-K kids really do meet a high standard and that 
we can actually measure the progress of those children in those 
programs. So I think that is the first concern.
    And then the second, as you mentioned, is funding. As we 
look at our budgets, I actually think that it could be a 
tremendous investment on the front end that will pay dividends 
on the back end several-fold if we could actually help to find 
funding for pre-K programs. As you mentioned, when we look at 
the discipline and academic issues that exist for our kids at 
the secondary levels, both middle school and high school, 
oftentimes those are actually linked to their academics. 
Because kids are operating so far below grade level, they are 
frustrated in class that they cannot keep up, and that is 
oftentimes the impetus for their behavioral problems and 
issues.
    So I really do think that if we can find a way to make the 
investment at the front end, that we really will see 
significant benefits later on.
    Senator Carper. Anybody else? Yes, sir, Mr. Bobb? I love 
saying that, Mr. Bobb.
    Mr. Bobb. Thank you. I like that, too.
    [Laughter.]
    Just real quickly, I came into this late, but I really like 
what I have seen from a lot of experts when they start speaking 
about the preparation gap. And as someone who is familiar with 
urban cities, I have become a champion for it because I just 
think that when it comes to funding, where we really need to 
put our funding is between zero to three, because without the 
prenatal and postnatal health care, that impacts a child's 
ability to learn. And when you have a child in a household 
where the household itself has parents who are functionally 
illiterate by the State standards, that impacts a child's 
ability to learn. If a child lives in a household where there 
is lead-based paint and plays on playgrounds where there is 
lead-based paint, that impacts a child's ability to learn and 
impacts a child's cognitive schools.
    There are programs wherein they use community volunteers 
and others who actually go into some of the homes at the age 
when a child is 16 months of age and start introducing into 
those households learning-appropriate toys, learning-
appropriate materials, and start working with that child's 
cognitive and motor skills on the front end and working on the 
other pathologies within those communities. So I believe when 
it comes to making major investment in our urban cities, you 
need to make that investment at the time a child is conceived 
in the community and work with that household up until the 
child reaches age three and then enter the other universal pre-
K programs. So I think it actually starts earlier.
    Senator Carper. OK, good point. Ms. Gist.
    Ms. Gist. You can tell that you have tapped into something 
here on this panel as it relates to early childhood education. 
This is an issue that is very near and dear to all of us, 
including Mayor Fenty, who intentionally--
    Senator Carper. Is that true, Mr. Mayor?
    Mayor Fenty. I think what she is getting to is we actually 
made a change in the structure to allow the State Education 
Office to have much more of a role in early childhood 
education. It is definitely the case. I support what you said 
on the record.
    Senator Carper. Good. Ms. Gist.
    Ms. Gist. That is exactly what I was going to say. The 
Mayor intentionally in his structure moved early childhood, 
early care and education into the Office of the State 
Superintendent of Education so that we can focus on it, so we 
can focus on the quality of early care and education that we 
have in the District, and so that we can ensure that we have 
alignment from those early childhood programs and through the 
rest of our educational system.
    And if I may, I also just wanted to thank you, Senator. 
Secretary Val Woodruff up in your State has been--
    Senator Carper. You know Val Woodruff?
    Ms. Gist. We do. She has been incredibly helpful to us, and 
I just wanted to thank you. She and her staff have been 
wonderful to us as we have been setting up our new State 
office.
    Senator Carper. Well, that is good. Thanks for saying that. 
I asked Ms. Woodruff to become our Secretary of Education in 
our State a number of years ago, my last term as governor, and 
she is still our Secretary of Education and does, I think, a 
very fine job.
    One of the things we realized in Delaware is that in terms 
of accountability, we figured out it was important to hold 
schools accountable. We figured out it was important to hold 
school districts accountable and it was important to hold 
students accountable. We are searching and probably still 
searching for ways to truly hold parents accountable. We also 
wanted to extend accountability to educators, not just the 
teachers in the classrooms, but to administrators and others, 
as well. That was a difficult battle, as you might imagine. As 
a matter of fact, our State still struggles with how do we hold 
educators accountable and parents accountable.
    I don't know to what extent you are looking at what is 
oftentimes referred to as pay-for-performance, but to the 
extent that you can come up with an approach that is fair, 
equitable for teachers, and fair to parents, fair to kids, we 
would look to you as a model. So if you do that kind of work, I 
hope you can share that with all of us.
    The last thing I want to say, or can I ask one more 
question, Mr. Chairman?
    Senator Akaka. Yes.
    Senator Carper. Thank you. Talk to us for just a moment 
about your academic standards. We set academic standards in 
math, science, English, and social studies, and have come along 
and updated those and created some other standards for other 
core curriculum, and we think they are pretty rigorous 
standards. And I talked earlier about how some States like to 
dumb down their standards and that way they can make it appear 
that they are doing better when the kids take the test, but we 
find out later on when they take these NAPE tests in the fourth 
and eighth grades in reading and math that the kids don't do so 
well, and so you figure out, these schools or States are just 
dumbing down their standards, which doesn't really do the kids 
a favor in the long run nor the States.
    Talk to us about the standards that you have in place. How 
long have they been in place? Do you look at them from time to 
time? How do your kids do under your standards when you test 
your kids annually, and how do they do on the NAPE?
    Ms. Gist. We do have new standards in the District of 
Columbia. Within the last 2 years, our Superintendent in his 
role as the Chief State School Officer and our Board, which was 
then operating as both the Local and the State Board, approved 
standards for reading, math, science, and social studies, and 
we have draft standards in place for our world languages, 
health, P.E., and others are in the process right now.
    Our standards are actually quite rigorous. They were, when 
compared with performance on the NAPE, rated very high, in 
fact, among the highest in the country. They were modeled after 
the Massachusetts standards. We feel confident that we have 
high standards, strong standards in place right now, although 
we do intend to take another look at those standards. We want 
to make sure that our standards are aligned across all 
educational levels, as I mentioned earlier, as well as ensuring 
that they are aligned with college and workforce expectations. 
But we do feel confident in the standards that we have in place 
and we also have a new State test that is aligned with our new 
standards.
    Senator Carper. OK.
    Ms. Rhee. I would like to just comment and say that I agree 
with Superintendent Gist that our standards are very strong. 
Our challenge right now is ensuring that we have a curriculum 
and that we have instruction in the classroom that is actually 
standards-based and is teaching the children to meet those high 
standards, and that is really where we are struggling, is to 
make sure that the instruction in the classroom every day is 
standards-based--
    Senator Carper. So it aligns with the standards.
    Ms. Rhee. Absolutely.
    Senator Carper. Good point. Let me close, if I can. Is this 
the end of the hearing, Mr. Chairman? Are you ready to wrap it 
up?
    Senator Akaka. Yes.
    Senator Carper. Okay. I won't give the benediction, the 
Chairman will give the benediction, but if I could just mention 
one last thing. We are so fortunate in Delaware, we have a 
State motto, Mr. Chairman, that is we are the first State that 
ratified the Constitution. For one whole week, Delaware was the 
entire United States of America.
    [Laughter.]
    And we opened it up. We let in Pennsylvania. We let in New 
Jersey and Maryland and eventually Hawaii. For the most part, I 
think we are pleased with the way it has turned out.
    Mayor Fenty. For the record, we have got one more State to 
let in, Senator Carper.
    [Laughter.]
    Senator Carper. Well, we are going to make sure that your 
Delegate has a chance to fully participate, and we are pleased 
to have been, Senator Akaka and I and Senator Lieberman and 
others were pleased to be able to have supported that.
    Mayor Fenty. Thank you very much.
    Senator Carper. But we have been fortunate in Delaware--
there are some things you don't want to be first in, we have 
found out, but there are a lot of things it is fine to be first 
in. One of the things that we are first in, we had a governor 
named Pete DuPont who was the governor for 8 years back in the 
late 1970s, early 1980s, and one of the things that Pete DuPont 
and his education advisor, a fellow named Ken Smith, identified 
was we had a lot of kids dropping out. They made it as far as 
the 12th grade. They dropped out in the 12th grade. I mean, 
normally you think if you get that close, you wouldn't drop 
out. But these kids were dropping out in the 12th grade.
    They tried to figure out why, and it seemed like a lot of 
times, the kids who were dropping out were kids who didn't 
really feel they were getting prepared for anything. They could 
not relate what was going on in their classroom with the rest 
of their lives. They didn't feel a part of anything. They maybe 
weren't on a sports team. They weren't academically gifted. 
They just were kind of, maybe not misfits, but they just didn't 
feel a part of their school and they just drifted away and 
dropped out. They weren't doing well, so they quit.
    In a high school in Wilmington, Delaware, called Wilmington 
High School, Pete DuPont, with the advice of his education 
advisor, Ken Smith, created a program that they called Jobs for 
Delaware Graduates, and it is not really a job program as such 
but it was a program just for 12th grade and they took about 20 
kids at Wilmington High School, which was only one of two high 
schools in the inner city in Wilmington, and they said, we are 
going to provide for these kids the opportunity to have a 
combination mentor-social worker-teacher, and they ended up 
calling the person a job specialist. The job of this person was 
to make these kids feel a part of something and to prepare them 
in a real practical way for the world of work and to stick with 
them through high school and for a year after that.
    And they started in this one high school in Delaware. 
Today, it is in virtually every high school in Delaware. It is 
not just a grade 12 program with a year after that, but we 
start with kids in the ninth grade. We identify kids that are 
at high risk for dropping out. We look at their older brothers 
and sisters who didn't make it through and get these kids 
involved early on, give them a sense of belonging and just a 
practical approach to why it's important. Why is it relevant to 
learn math, reading, and social studies? Why are these things 
relevant in your life? Involve them for a year beyond high 
school.
    The program started off at one high school with 20 kids in 
Wilmington, Delaware. It is now not just in Delaware, but it is 
in 29 or 30 other States. I think it is in the District of 
Columbia. We call it Jobs for America's Graduates. George 
Voinovich and I, Mike Leavitt, some others served on the 
national board, Tom Vilsack, Governor of Iowa was the chair. I 
said Mike Leavitt. I should have said Tom Vilsack. But all of 
us have been involved at one time or other as governors, 
especially.
    But I would just commend to you, as you look at ways to 
reduce your dropout rate in the District of Columbia, that you 
take a look at Jobs for D.C. Graduates. I think they have about 
a 90, 94 percent success rate these days for kids who they 
bring into the program who actually go on and graduate and find 
themselves later on in jobs, post-secondary education and jobs 
in the military.
    As governor, I was always looking for things that work and 
to be able to replicate things that work in other States, steal 
good ideas. This is an idea that we are proud to have started 
and it has spread to a lot of places and it helped a whole lot 
of kids over the last 25 years or so. So I would commend it to 
your attention.
    The last thing I want to say, on a more personal note, 
Mayor Fenty, I love to run. I like to exercise. I try to work 
out every day. When I get to the finish line at races, I like 
to stand there and shake hands with everybody who comes across 
after me.
    Mayor Fenty. Right.
    Senator Carper. And as a politician, it gives me a great 
incentive to try to run faster and stronger.
    Mayor Fenty. On that note, Senator, you are going to have 
to tell your son he is going to have to give me a rematch.
    Senator Carper. Okay.
    Mayor Fenty. We had my staff do some research. It looks 
like I am a faster runner than him and we are about the same on 
the bike, but he is one heck of a swimmer.
    Senator Carper. He can swim. He swims on his college swim 
team.
    Mayor Fenty. That is not fair.
    [Laughter.]
    Senator Carper. But I tell you, of all the elected 
officials that were participating that day----
    Mayor Fenty. Yes, I was the first Mayor to finish.
    Senator Carper [continuing]. You were far and away the 
first to come across.
    Mayor Fenty. Tell him to come do the Nation's Triathalon 
September 29.
    Senator Carper. Is that when it is?
    Mayor Fenty. Yes. It will be on my home court in the 
Potomac.
    [Laughter.]
    Senator Carper. What I find is that the people that I 
participate with, and I am not a great runner or anything, but 
I love to run, but I find that people that I participate with 
appreciate the fact that an elected official has a spirit of 
competition and that is great. I salute you for your activities 
there and for the leadership that you are providing.
    Mayor Fenty. Thank you for your support of the city. We 
really appreciate it.
    Senator Carper. It is an honor. Thank you. Thanks for 
joining us today. And Mr. Chairman, thank you for allowing me 
to participate in this hearing. I am sorry I got here so late.
    Senator Akaka. Thank you very much, Senator Carper.
    Let me ask a few more questions, and these are going to be 
questions that are directly connected with the system. Ms. Rhee 
and Mr. Reinoso, I understand there is a hiring freeze on 
principals, but how many teaching and principal positions still 
need to be filled before the first day of school and how do you 
plan to fill those vacancies?
    Ms. Rhee. When I first came into the position, one of the 
first things that came to light was the fact that we had a 
tremendous number of principal vacancies in the system. At that 
time, it was about 19. As I looked at the pool of candidates 
that we had available for those positions and the processes 
that the HR Department had in place, I did not feel confident 
that we were going to place high-quality principals into those 
slots. Furthermore, there was not the community engagement and 
investment, involvement, in the principal selection process.
    So at that time, I made the decision to put the freeze on 
the hiring of permanent principals and I said that we would 
look at the pool and hire interim principals, but that those 
individuals would be told that we would be running an 
aggressive national campaign for the best principal talent, 
starting from this summer, that in the February time frame, we 
would be interviewing for principal positions in each of those 
interim positions, that the interim was welcome to throw their 
hat in the ring, but that we wanted the community and the 
school districts to see how those people compared to an 
incredibly strong pool that we were able to recruit nationwide.
    So that is why I made that decision. We have been making 
steady progress on filling the principal vacancies with these 
interims and we anticipate that within the next 2 or 3 weeks, 
all of those positions will be filled.
    On the teacher front, as of last week, we still had--well, 
overall, we are anticipating that we will fill about 440 
teacher vacancies this year. About 220 of them were filled with 
teachers who are transferring throughout the system, as well as 
our two flagship pipeline programs, the D.C. Teaching Fellows 
and Teach for America. Of the remaining 220 positions, we just 
held a placement fair last week where we invited about 200 
candidates and we anticipate that the vast majority of them 
will be placed into those slots. But we anticipate having very 
few teaching vacancies on the first day of school.
    Senator Akaka. Thank you. I have questions on special 
education that I would like to ask Mr. Reinoso and the Mayor. 
Mr. Reinoso, in your testimony, you mentioned many initiatives 
to improve the delivery of educational services in the 
District. However, I noticed that you did not mention the area 
of special education, which DCPS continues to struggle with 
addressing. With a special education population of 18 percent, 
DCPS spent a reported $114 million in 2006 to private schools 
to educate 2,111 special education students. What are some of 
the reforms you see as needed to address this population?
    Mr. Reinoso. Thank you for the question. Special education 
reform is a critical priority for the administration, both at 
the State level and at the LEA level, with DCPS as the largest 
LEA. As you know, there are a number of court cases that 
involve special education in the District. Through the Mayor's 
leadership, the Mayor's Office has been coordinating since 
early on in the administration efforts to accelerate the 
meeting of targets set in consent decree for the Blackman Jones 
case and we will continue to evaluate that process and help 
ensure that it stays on track.
    One of the critical issues that has to be addressed in 
special education--you alluded to it earlier--is the issue of 
data, the ability to track the special education population, 
the ability to track the hearing officer decisions and ensure 
compliance with those decisions, which is a core piece of that 
case. We also have some State-level compliance issues that we 
are working on and State Superintendent Gist and her team are 
building the State-level capacity to address these State level 
special education issues.
    At the same time, as Chancellor Rhee mentioned, there is a 
very fair question about how many of those children have been 
tagged ``special education'' but really have more basic 
learning issues that can be addressed within the school 
environment, and so, to that effect, I know the Chancellor is 
working on her systemwide professional development plan and we 
will be targeting this issue, among others, moving forward, 
because we have got to provide interventions for our students 
before they get labeled ``special education.'' We also have to 
create a culture of accountability in which principals at local 
schools view it as part of their core responsibility to address 
the needs of children who are special education students, also 
children who may be falling behind, but prior to reaching that 
designation.
    So as the Chancellor moves forward on the development of 
her leadership institute, I am certain that the issues around 
special education accountability will play a critical role in 
developing the new principal accountability model that we will 
have as the State--at the LEA level and likewise we hope to 
create an incentive mechanism for the LEAs. Currently, as you 
know, there is a huge amount of money that is spent on special 
education and that spending is provided outside of the local 
education funding lines in our budget. We hope to help align 
the incentives of the LEA with the State obligation for special 
education by providing a mechanism whereby some of the savings 
from reducing the number of placements in special education 
will be reinvested in the local schools, again, so that there 
is an alignment of incentives in dealing with these issues.
    Senator Akaka. Thank you. A quick question to the Mayor. 
WAMU, Mr. Chairman, recently reported that a number of special 
education teachers have claimed that they did not receive the 
bonuses they were promised. I have also heard reports of other 
teachers not getting paid. What systems are you putting in 
place to ensure that all teachers are paid appropriately for 
their work, and also, what are you doing to ensure all hiring 
and retention tools are being used accurately and effectively?
    Mayor Fenty. Well, first, on the report from WAMU, the 
Chancellor has informed me that the money for that has been 
released.
    Second, we have addressed some of the issues about trying 
to make sure that payments get through to teachers. That is one 
of the reasons why it is so critical for us to have a personnel 
system that is completely automated rather than the antiquated 
one that we have right now. It is a wonder anyone gets paid on 
time, the way we are doing it just completely manually, and we 
have made enormous progress on that just since June 12.
    The Chancellor, I think, is as much of an expert on exactly 
what needs to be done to recruit, train, and retain teachers. 
We will give her the resources necessary to do so.
    Just on the general issue of special education, we think 
that the early childhood education is critical. We think that 
more technology so that we can better comply with the 
Individuals with Disabilities in Education Act is critical. We 
think that inclusion is critical. But this issue of teachers 
and special education is also linked.
    There was a very pointed article in the Washington Post 
over a year ago which showed that we were being penny-wise and 
pound-foolish as we cut teachers. Many of them were special 
education teachers. We would immediately make ourselves out of 
compliance with Federal law, which then meant that instead of 
paying a teacher's salary, which could be anywhere between 
$40,000 and $70,000, we ended up paying to send one kid into a 
private school, which by itself is $40,000 to $70,000. So we 
think that strengthening the classroom, having qualified 
teachers, inclusion models, are ways of actually preventing us 
from getting out of compliance with the special education laws 
and also saving us revenue in the long term.
    Senator Akaka. Thank you very much. I have one more 
question for Ms. Rhee. I understand that there are a number of 
contracted organizations supplementing DCPS to meet the needs 
of the student population. In implementing your reform efforts, 
are you planning to hire additional outside contractors? If so, 
what services would they provide and how do you plan to make 
those contracts transparent?
    Ms. Rhee. I think right now is a critical time for the 
District because, to be frank, we do not have the capacity that 
we will ultimately need within the District to be able to meet 
the needs of all children. So I do think that it is strategic 
and prudent of us to think about how we can gain some capacity 
by working with some outside providers on a number of different 
things, for example, the professional development of teachers. 
We have a number of outside organizations who have a 
longstanding history of working here with us in Washington, DC, 
who have provided great professional development services to 
our teachers.
    The most critical thing to me right now as I am looking 
from a systemic perspective is, one, that our providers be able 
to provide at scale so that we don't have a fragmented system 
where there are too many providers, but that we have a small 
number of providers who can provide across the District; and 
that, two, they have a track record of proven results for 
increasing student achievement in those schools.
    I am looking to ensure that we are instituting performance 
guarantees in all of the contracts that we have from here on 
out, whether it be for things like food service or professional 
development. It is important that we are holding our vendors 
accountable for ensuring specific outcomes and that if they are 
not meeting those measures, that we end those contracts and 
find providers who are able to do that.
    Senator Akaka. Thank you very much for that. Mr. Mayor, I 
am impressed.
    Mayor Fenty. Thank you.
    Senator Akaka. Let me say that we sit at the edge of 
meaningful reforms and you are the team that is charged with 
delivering the promise of hope to the District, and that is 
huge. I am still concerned that there are insufficient 
benchmarks and a lack of clear details. I know you are all 
dedicated to succeeding and I intend to remain focused on this 
issue and do all I can to help. The start of the school year is 
around the corner and I hope that by then, we will see 
significantly more progress. I am hopeful that the reforms you 
seek will improve DCPS.
    The hearing record of this Subcommittee will remain open 
for 2 weeks for Members to submit any additional statements 
they may have or any questions they may want to have answered.
    So at this point, I want to thank all of the witnesses for 
being here, for your valuable responses. I want to tell you 
that, from what you have delivered today, I am excited to see 
what is going to be happening and we will be certainly 
following you on that.
    Mayor Fenty. Thank you.
    Senator Akaka. This hearing is adjourned.
    [Whereupon, at 4:50 p.m., the Subcommittee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]



                                 <all>

</pre></body></html>
